<html>
<title> - LAGGING BEHIND: THE STATE OF HIGH-SPEED RAIL IN THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   LAGGING BEHIND: THE STATE OF HIGH SPEED RAIL IN THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2016

                               __________

                           Serial No. 114-70

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                               ____________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
21-434 PDF                     WASHINGTON : 2016                         
              
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8dfc8d7f8dbcdcbccd0ddd4c896dbd7d596">[email&#160;protected]</a>  
              
              
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                  Ari Wisch, Professional Staff Member
                          William Marx, Clerk
             Subcommittee on Transportation & Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DESAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2016....................................     1

                               WITNESSES

Ms. Sarah Feinberg, Administrator, Federal Railroad 
  Administration
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. Baruch Feigenbaum, Assistant Director, Transportation Policy, 
  Reason Foundation
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. Thomas Hart Jr., President, Rail Forward
    Oral Statement...............................................    24
    Written Statement............................................    27
Mr. Chris Koos, Mayor, Normal, Illinois
    Oral Statement...............................................    34
    Written Statement............................................    37

 
   LAGGING BEHIND: THE STATE OF HIGH-SPEED RAIL IN THE UNITED STATES

                              ----------                              


                        Thursday, July 14, 2016

                   House of Representatives
   Subcommittee on Transportation and Public Assets
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2154, Rayburn House Office Building, Hon. John Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Duckworth, Boyle, and 
DeSaulnier.
    Also Present: Representatives Costa and Davis.
    Mr. Mica. Good afternoon. I would like to welcome everyone 
to the Committee on Oversight and Government Reform, 
Subcommittee on Transportation and Public Assets subcommittee 
hearing today. Pleased to have you join us today.
    The subject today of our hearing is entitled ``Lagging 
Behind: The State of High-Speed Rail in the United States.'' As 
part of our oversight responsibility, we are conducting a 
review of where we are with the administration's high-speed 
rail program.
    The committee, I want to state at the beginning, will 
proceed, and I will give the order. And without objection, 
first of all, the chair is authorized to declare a recess at 
any time.
    I will also start and note the presence of our colleague 
Congressman Rodney Davis of Illinois and ask unanimous consent 
that he be allowed to participate in these proceedings. Without 
objection, so ordered. Welcome.
    Mr. Davis. Thank you, Chairman Mica, Ranking Member 
Duckworth. Thank you for the unanimous consent, and I would 
have been very upset if one would have objected.
    Mr. Mica. We will get to you. I think you are going to 
introduce one of our witnesses today. But welcome, and you can 
also participate.
    So thank you so much.
    The order of business will be as follows. First, we will 
start with opening statements, myself and the ranking member, 
Ms. Duckworth. Then we will hear from our witnesses, and we 
have four distinguished witnesses today. And they will be sworn 
in. This is an investigations and oversight subcommittee.
    And then after we have heard from all four of the 
witnesses, then we will proceed to questions. That will be the 
order of business today.
    So welcome, all of you. Thank you for participating and 
being with us.
    I will start with my opening statement and some comments 
that I put together for this hearing. Probably there is not too 
many people in Congress that are what I consider greater 
advocates of passenger rail and also high-speed rail. I think, 
unfortunately, we have not been able to keep up with the rest 
of the world, but I think it is a very cost-effective, 
environmentally friendly way to move people, and we, 
unfortunately, have not had the greatest success in that area, 
except in some limited areas.
    I was somewhat optimistic, even as a Republican, when I 
heard this new guy on the block, President Barack Obama, 
announce--make a pronouncement even, I think, during his 
campaign and then during his election. And in 2009, after he 
took office, he said that the administration's efforts would be 
to transform travel in America with a historic investment in 
high-speed rail.
    The President also said, another quote, is imagine whisking 
through towns at over 100 miles an hour. And he also has 
addressed this in his address to Congress, State of the Union, 
support for passenger rail service in the United States.
    However, 7 years later, we only have high-speed rail as 
part of our imagination. We don't have any real projects that 
we can point to that are operational or even close to that. 
There is no hope right now of actually even seeing a successful 
project in the foreseeable future.
    The President pledged and the Congress provided, and we 
spent over $10 billion on his high-speed rail initial proposal. 
Of that, 99 percent of the money--and we will hear from the FRA 
administrator shortly--is obligated, and some 51 percent, we 
are told, has been spent. And unfortunately, we don't have a 
high-speed system that we can point to or show again that it is 
in the near future.
    In addition to that $10 billion, Congress has appropriated 
some $10.4 billion in capital spending for Amtrak. That is 
capital money, most of it in the Northeast Corridor, and I have 
always been an advocate for the Northeast Corridor as having 
the best potential to move forward and get close to high-speed 
rail as we could. But even with those expenditures of over $20 
billion, again, the goal is elusive.
    FRA has awarded billions to different projects, rail 
projects. Unfortunately, most of that is to build what I call 
``snail-speed rail,'' and also some of the money was directed 
towards some flawed projects that, unfortunately, were rejected 
when offered by--to multiple Governors.
    For example, and I think we have got in Ohio FRA awarded 
$400 million for the proposed 3C project that was rejected by 
Governor Kasich. The 3C would have provided average speeds 
initially of 39 miles an hour, was later revised to 50 miles an 
hour, and would have taken 6 hours and 30 minutes to travel 
between Cleveland and Cincinnati, later revised to 5 hours and 
11 minutes.
    It is far longer than a car trip or bus trip would take 
between these cities, which is a little over 4 hours. Maybe I 
can make that route next week when I am in Cleveland.
    But it didn't happen. President Obama promised that his $10 
billion rail problem would use some existing infrastructure to 
increase speeds on some routes from 70 miles an hour to over 
100 miles an hour, a goal that he said was quickly achievable.
    But today, aside from the preexisting Northeast Corridor, 
we certainly--or we currently only have four lines in the U.S. 
with any segments capable of operating at 110 mile an hour. 
That is top speed, not average speed. And those fast segments 
consist of less than 300 miles of track total.
    But the average speeds on these corridors, unfortunately, 
are much lower, such as the Chicago to St. Louis line, where 
after we have spent $1.3 billion in funding, average speeds 
will go from 53 miles an hour to 62 miles an hour. That is not 
high speed by anyone's definition.
    You can see some of these up here, leading at the top with 
California. I think Mr. Denham is going to be doing a hearing 
on that, he told me, I think in a month or so. But you can look 
at the other routes and the increase of speed, which is very 
minimal. None of them even close to high speed.
    One time we used to define it as 110 miles an hour average. 
We are in the 100 mile per hour range. Higher speed, of course, 
is another question.
    But on some of the corridors, again, the Chicago-St. Louis 
line, you see the $1.3 billion expenditure. On some of the 
other corridors that received top awards, the speed isn't 
raised at all, such as the Seattle-Portland corridor, which 
received $813 million, and the Charlotte to Raleigh corridor, 
which received $569 million.
    On two corridors given major awards, now this is 
interesting, ridership actually decreased by thousands between 
2008 and 2015. That is the Chicago-Detroit and then Portland-
Seattle routes.
    In 2011, in the State of the Union address, President Obama 
said for some trips it will be faster than flying, showing us 
one example. Instead, FRA spent billions of dollars on projects 
that will have travel times comparable to taking the bus or 
driving the route.
    Only one project funded by the $10 billion Obama rail 
project is actually planned to create what we call real high-
speed rail service. That is California, where so far we have 
got, put the lion's share of the $10 billion, some $3.9 
billion. And again, unfortunately, that project has been in 
turmoil from almost the beginning.
    The California project, some have told me, is off the 
tracks. Its budget has again almost doubled from $33 billion to 
$64 billion. The average speeds will be far lower than 
originally projected, and the travel time between LA and San 
Francisco, if it is done, will take 4 to 6 hours is what we are 
now hearing.
    Instead of the original start date of 2020, which was 
projected for the California project, the first passengers 
won't be able to ride the first section until 2025 at the 
earliest. And service isn't planned to reach from San Francisco 
to Los Angeles. The best, most optimistic estimate is 2029.
    While the Obama administration has failed to deliver high-
speed rail in the United States, around the world there are 
some incredibly successful projects. In China, you can travel 
635 miles on high-speed rail to Beijing to Nanjing at an 
average speed of 174 miles an hour. And you will hear the 
amount of investment that some of these countries have put into 
this, some all public money and then some public-private 
partnership.
    In France, you can travel 408 miles from Paris to Avignon. 
I have actually taken that route, and it is an average speed of 
154 miles per hour, average speed.
    In Russia, and I sat next to a Russian representative at a 
high-speed rail conference, kind of shocked to find out even 
the Russians have leaped ahead of us, and from 404 miles from 
St. Peters to Moscow, the average speed is 108 miles an hour. 
They have high-speed rail or a close to 110 mile an hour mark 
in the former Soviet Union, which has partnered with private 
partners to put that system in place.
    High-speed rail, unfortunately, still remains an illusion 
in the United States. The administration's--I told the staff to 
put this quote in here. I said they are trying to put as much 
parsley around the turkey as possible. That is my quote. 
Unfortunately, it is not the shining, sleek, high-speed rail at 
the high speed we would like to see.
    We do want to try to make this a positive hearing. We have 
opportunity for public-private partnerships coming up, and we 
want to get back on track and see if we can get in the game.
    Very pleased to have, again, our witnesses here, and thank 
you again for participating.
    Let me yield now to our ranking member, Ms. Duckworth, who 
is actually in the Chicago area, and we have got two or three 
routes emanating out from there we would like to see high-speed 
rail.
    Thank you.
    Ms. Duckworth. Thank you, Mr. Chairman. And thank you for 
holding this very important hearing.
    Shortly after taking office in 2009, President Obama 
announced his strategy for modernizing our Nation's passenger 
rail system, as you mentioned. There are two parts to the 
President's strategy.
    The first was to improve our existing rail lines to make 
current train service faster and safer. The second part was to 
identify potential corridors for a world-class high-speed rail 
system. In the press and elsewhere, there has been a lot of 
focus on the second part of the President's strategy. However, 
it is also important to acknowledge the importance of improving 
existing rail lines.
    Just as a race car can't run on a dirt road, you cannot run 
a bullet train on 100-year-old tracks. To address a need for 
modern infrastructure, the President used the 2009 economic 
stimulus package to put millions of Americans back to work and 
allow States to upgrade existing rail corridors.
    The Federal Railroad Administration has allocated $10 
billion to States through the High-Speed Intercity Passenger 
Rail System, or HSIPRS. They used this money to fund 146 
individual projects various States developed.
    These projects have already delivered real results. In five 
key rail corridors around the country, including the two in 
Illinois, we have completed dozens of modernization projects, 
reducing travel times and improving their frequency, 
reliability, and safety of service. The average age of these 5 
corridors is 135 years old.
    The investment in upgrading them is paying off. Once the 
funded projects are complete, these previously neglected 
corridors can operate at speeds of up to 125 miles an hour. 
There is a lot of work that needs to be done to bring our 
transportation infrastructure into the 21st century. The 
benefits of doing so are very real.
    Private development follows Federal investment, which will 
prompt economic revival. In Illinois, we saw the impact of 
these Federal dollars and the private investment that follows. 
Today, we will hear from the Mayor of Normal, Illinois, about 
what these Federal programs have done for his community, 
including keeping thousands of jobs in the Normal area.
    However, despite the benefits this investment in our 
Nation's transportation infrastructure brings, some State 
Republican politicians have expressed significant opposition to 
these programs. In Florida, Republican Governor Rick Scott 
rejected a Federal grant. This decision cost his State hundreds 
of millions of dollars in lost investment and upgrades. In 
Wisconsin, Republican Governor Scott Walker also rejected 
Federal funds, costing his State over 10,000 construction jobs.
    Since 2010, the Federal Railroad Administration has 
requested over $34 billion in additional funding to pay for the 
next phase of rail modernization efforts. Of this request of 
$34 billion, the majority has granted zero dollars. In fact, 
since taking control of Congress, the majority has denied all 
additional funding requested for high-speed rail.
    Today, if we hear the Republican majority lamenting that we 
are lagging behind in our infrastructure investment, they 
should look in the mirror. Twenty-first century transportation 
requires 21st century infrastructure, and that requires 21st 
century funding. Unfortunately, the current majority in 
Congress, like so many of our bridges and tunnels, seems stuck 
in the 19th century.
    Thank you, Mr. Chairman, for calling this hearing. I look 
forward to hearing from our witnesses in particular on how the 
President's programs have benefited the people of Illinois.
    Thank you, and I yield back.
    Mr. Mica. Well, thank you for your opening statement.
    And we will leave the record open for 5 legislative days 
for any Members who would like to submit a written statement.
    I am going to now recognize the panel of witnesses, and let 
me start to welcome back Sarah Feinberg, and she is the 
administrator of the Federal Railroad Administration; Mr. 
Baruch--is it Feigenbaum? Feigenbaum. And he is Assistant 
Director for Transportation Policy at the Reason Foundation. 
And then welcome back Mr. Thomas Hart, who is the president of 
Rail Forward. And then let me yield to Congressman Davis to 
introduce our last witness, but welcome.
    Mr. Davis. Thank you, Mr. Chairman. Thank you, Ranking 
Member Duckworth, for giving me the opportunity to be here to 
introduce my constituent and my friend, Mayor Chris Koos.
    You know, not every Member of this institution gets to say 
that they actually represent Normal.
    [Laughter.]
    Mr. Davis. But I do. And I am proud that Mayor Koos is at 
the helm in that community.
    You know, Mayor Koos joined the town council in 2001 and 
was sworn in as Mayor just 2 years later. And for the past 15 
years, he has been working to make sure that not only his 
community of Normal, but the neighboring community of 
Bloomington, which we call the twin cities in our area, is an 
area that has experienced growth. And a lot of that growth has 
been centered around the infrastructure needs of both 
communities.
    Now a lot of my family revenue goes to Normal because my 
daughter is a student at Illinois State University, which is in 
Mayor Koos' fine community, and Illinois State University is a 
shining example of how a transportation network can continue to 
grow a public institution in States like Illinois. And that 
took leadership, that took vision, and it took working together 
as a community to make sure those things get done.
    I am happy to have an office in what we now call ``uptown 
Normal,'' where we see the transportation networks come 
together that Mayor Koos will discuss later. Because, 
unfortunately, Mayor Koos, I had my flight to your community 
canceled that was going to be later tonight, I am rerouting to 
St. Louis, and I cannot stay.
    But welcome once again. Thank you for your service and 
thank you for being such a good friend.
    Chairman, I yield back.
    Mr. Mica. Well, it is great to learn there are some people 
in Congress who are from Normal, and we certainly welcome you 
and we are delighted to have your representative, who I really 
enjoy his sense of humor, which you have to keep around here. 
So we wish him well, thank him for introducing you.
    Now that we have got all of our witnesses introduced, it is 
my responsibility to tell you again this is an investigations 
and oversight committee of Congress and subcommittee hearing. 
And we do swear in all of our witnesses. So now if you will 
stand and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this subcommittee of Congress is the whole 
truth and nothing but the truth?
    [Response.]
    Mr. Mica. Let the record reflect that all of the witnesses 
answered in the affirmative. Again, welcome.
    And then we got some goldy-oldies who have been here before 
and a couple of new kids on the block as far as witnesses. The 
way we proceed is please do not read your entire statement if 
you have prepared one. We like you to summarize and summarize 
in about 5 minutes.
    Your entire remarks will be made part of the proceedings, 
and also if you have anything else you want to submit for the 
record, upon request, we will also submit that. So, actually, 
it is kind of neat. If you come in the back, I can show you the 
proceedings of all of our hearings and what was said and the 
submissions. So this is an official proceeding, and we do 
welcome you completing the record. So I give you that 
invitation.
    So with that little introduction, again we welcome you. You 
are kind of lucky today because most of the suspects have fled 
the Capitol. Not this many have left since the Capitol was 
burned by the British in August of 1814, but they are out, and 
you are very fortunate so you won't get grilled or questioned 
as much today. But it is an important hearing, and we do want 
to review where we have been and where we need to go.
    And I am delighted again to welcome back--and she made 
special arrangements to be here. That is why I didn't want to 
cancel the hearing or postpone it today. But we welcome back 
the director and administrator of the Federal Railroad 
Administration.
    Welcome, Ms. Feinberg. You are recognized.

                       WITNESS STATEMENTS

                  STATEMENT OF SARAH FEINBERG

    Ms. Feinberg. Thank you so much.
    Chairman Mica, Ranking Member Duckworth, and members of the 
subcommittee, thank you for inviting me to discuss the current 
state of high-speed and intercity passenger rail in the United 
States.
    Nearly 8 years ago, Congress rightfully recognized that for 
our country to have a strong and modern transportation system, 
we must begin to move beyond our dependence on motor vehicles 
and aviation. We must have a more reliable, frequent, and 
faster passenger rail service.
    To achieve this goal, Congress passed two landmark pieces 
of legislation. The first was the Passenger Rail Investment and 
Improvement Act of 2008, signed by President George W. Bush. 
PRIIA established the foundation and the programs for FRA's 
High-Speed and Intercity Passenger Rail Program. The second 
piece of legislation was the American Recovery and Reinvestment 
Act of 2009, which provided the seed money to begin building 
the stronger passenger rail system while also jump-starting the 
country's economic recovery from the great recession.
    In 2009, FRA began working to achieve a long-term 25-year 
goal to connect 80 percent of the country's population to 
reliable, frequent, and faster passenger rail service. The 
program had two parts. One, to improve existing rail lines in 
order to increase capacity, speed, and frequency. And two, to 
develop new corridors to serve new markets with world-class 
rail service, the likes of which already exist in many other 
countries.
    The program was national in scope, but State-based in 
execution, similar to how the Federal Government built the 
intercity highway system more than a half century ago. States 
were very much in the lead on requesting service, planning 
projects. They were given the ability to seek funding for 
projects that best reflected the needs and characteristics of 
their individual markets.
    FRA eventually received nearly 500 applications requesting 
more than $75 billion worth of project funding, far exceeding 
the $10.1 billion available. These applications proposed a wide 
variety of service improvements, including increased 
reliability, frequency of service, and speed.
    After careful and thorough review of the applications, FRA 
awarded funding to support nearly 150 projects in 35 States and 
the District of Columbia. Nearly 85 percent of these 
investments are concentrated in 6 key corridors.
    Today, thousands of corridor miles of track are being 
constructed or upgraded. New passenger locomotives are being 
manufactured, and more than 30 passenger stations are being 
upgraded. Rider experience is improving due to increased 
reliability and reductions in travel times.
    Mr. Chairman, I know you have great interest in the 
Northeast Corridor. Let me assure you that--and this 
subcommittee that FRA is committed to this vital corridor. From 
the Recovery Act alone, FRA awarded nearly $1 billion for 
improvements.
    Of course, that does not include the more than $3 billion 
that was initially awarded to the State of New Jersey to 
construct a new tunnel under the Hudson River, but more than 
half of the 150 projects the administration funded are 
complete. Another quarter are scheduled to be complete by the 
end of 2016.
    Like all major and ambitious transportation projects, 
whether public or private and no matter the mode, there have 
been and remain important challenges that demand continued 
attention and contentious oversight. With the frequency at 
which few other grant programs have been reviewed, the 
Government Accountability Office and the Department of 
Transportation Office of Inspector General have exhaustively 
audited FRA's implementation of the Recovery Act and 
appropriations for passenger rail grants 14 times.
    The program is arguably now the most deeply investigated 
and audited program in the department's history. In no case did 
the auditors identify waste, fraud, or abuse in any of the 
grants.
    Mr. Chairman, improving the speed, efficiency, and 
reliability of America's railroads is critical to moving our 
transportation system into the 21st century. However, our most 
important task is ensuring that America's railroads are safe, 
which is why many of the investments we made as part of the 
program have also focused on safety.
    We have invested in eliminating grade crossings because the 
safest crossing is one where trains and motor vehicles never 
cross paths. And we've invested in bridge upgrades and repairs, 
track improvements, and positive train control. These 
investments are critically important because any increase we 
make to safety in one area of our rail system typically 
benefits the entire network because in the United States our 
freight and passenger rail networks are largely one and the 
same, as they frequently share track with each other.
    And Mr. Chairman, I'm aware that I'm running out of time, 
but while I'm on the issue of safety, I know that you are 
particularly interested in addressing our grant programs today. 
But I cannot address this committee today without addressing 
safety as an overall issue.
    On Friday, June 3rd, Union Pacific derailed a crude train 
in Mosier, Oregon. Fortunately, no one was injured, but the 
resulting fire burned for more than 14 hours. FRA has recently 
announced that the cause of the incident was UP's failure to 
maintain the track in that area.
    On Tuesday, June 28th, two BNSF trains collided in 
Panhandle Texas, killing three crew members and injuring one. 
The injured crew member's life was saved when he leapt off a 
moving locomotive just prior to the head-on collision.
    And just earlier this week, two passenger trains in Italy 
collided head-on, killing more than 20 people and injuring more 
than 50.
    Mr. Chairman, the FRA continues to do all that we can to 
improve safety. But we cannot do it alone. Railroads and 
shippers must move to safer, stronger, hazmat tank cars as soon 
as possible. Railroads must implement positive train control as 
soon as possible and not wait until the 2020 deadline.
    And railroads must upgrade their Civil War era braking 
systems so that braking is more efficient, and in the event of 
a derailment, fewer cars leave the tracks. And this Congress 
can do more as well with increased funding for commuter 
railroads struggling to afford PTC and additional funding for 
more FRA safety inspectors.
    Mr. Chairman and all the members of the subcommittee, thank 
you again for inviting me to be here today. While we have 
wisely invested $10 billion in high-performance rail, this 
country continues to fall behind in making the needed 
investments in our passenger rail system. There remains demand 
from communities and leaders across the country, and the 
administration has made repeated budget requests for additional 
funding to meet these needs.
    We need a strong transportation system, and the investments 
Congress made 8 years ago to be more reliable, frequent, and 
faster is only the beginning.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [Prepared statement of Ms. Feinberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Mica. Thank you. We will hold questions until we have 
heard from all the witnesses.
    Mr. Feigenbaum with the Reason Foundation, you are welcome 
and recognized.

                 STATEMENT OF BARUCH FEIGENBAUM

    Mr. Feigenbaum. Thank you, Mr. Chairman.
    And Mr. Chairman Mica and Ranking Member Duckworth and 
fellow members, thank you for the opportunity to testify to the 
House Subcommittee on Transportation and Public Assets.
    My name is Baruch Feigenbaum. I am the Assistant Director 
of Transportation Policy at Reason Foundation, a nonprofit 
think tank with offices in Los Angeles and Washington, D.C. For 
almost four decades, Reason's transportation experts have been 
advising Federal, State, and local policymakers on market-based 
approaches to transportation.
    I'm a graduate of the Georgia Institute of Technology, with 
degrees in public policy, transportation planning, and a 
concentration in engineering. My master's thesis studied 
induced demand. I have authored studies on high-speed rail in 
Europe and Asia, as well as looking at Texas, and I'm on two 
National Academy of Sciences committees.
    For the past 40 years, ever since the Johnson 
administration, the U.S. has shown an interest in high-speed 
rail. Previous programs failed to gain traction. However, that 
changed with the American Recovery and Reinvestment Act, also 
known as the stimulus. The Obama administration proposed 
spending $8 billion in stimulus funds to lay the groundwork for 
high-speed rail throughout the country.
    Implementing any new Federal program is challenging. It is 
unlikely that any program would be perfect from day one. 
However, there is considerable evidence that suggested the 
program could have been managed more effectively. Generally, 
the problems can be broken down into the overall vision of the 
program and then the actual implementation details.
    From the beginning, the high-speed rail program has lacked 
a defined direction. Officially, the program's aim is to help 
address the Nation's transportation investment challenges by 
making strategic investments in passenger rail corridors that 
connect communities, and I think that's a great inspirational 
statement, but I'm not sure that's a goal.
    Every country around the world that has built high-speed 
rail has done so for one of two reasons. Most built rail to 
relieve overcrowding on existing conventional rail lines. 
Several countries built high-speed rail to protect rail's share 
of travelers that was declining due to competition from 
aviation or cars.
    Since the number of U.S. passengers taking rail has 
remained constant and gains on the Acela and regional trains in 
the Northeast have basically offset losses on some of the long 
distance services, neither of these reasons is especially 
applicable for the U.S.
    All countries that have built successful high-speed rail 
lines have built the first line in the corridor most suited to 
high-speed rail. In the U.S., this is the Northeast Corridor, 
which connects Boston, New York, and Washington, D.C. While 
Amtrak currently operates higher-speed rail along this 
corridor, this service averages 68 miles per hour between 
Boston and New York and 82 miles per hour between New York and 
D.C.
    True high-speed rail would operate at twice the speed in 
the Northeast Corridor, with an average speed of close to 150 
miles per hour or more. Several lines in other countries have 
transitioned from existing conventional rail to high-speed 
rail.
    Additionally, instead of awarding funding to the most 
promising single line, the administration provided funding to 
33 States, the District of Columbia, and Amtrak. Much of this 
funding was not for building high-speed rail, but for improving 
operations of existing passenger rail corridors. And while 
there certainly is importance in doing that, the program's 
focus was supposed to be, at least initially, on high-speed 
rail.
    One of the most challenging projects, the one that's 
currently under construction, is in California. That's a 
project that costs have increased from $20 billion up to at one 
point in time $98 billion and down to $66 billion as some of 
the technology was chosen and changed.
    My biggest issue with this corridor is that it goes through 
the Central Valley, basically traversing three sides of a 
square instead of serving as a straight line between Los 
Angeles and San Francisco. And all of the successful high-speed 
rail lines around the world have gone in a straight line of 
being the most direct route.
    The implementation of the President's vision has had a 
number of problems as well. There has been staffing issues at 
the Federal Railroad Administration. The Passenger Rail 
Investment and Improvement Act expanded FRA's role, and perhaps 
FRA did some unrealistic things as a result of this in terms of 
taking on a massive railroad expansion only a year after that 
was completed.
    There's problems that are continuing to the present day. 
They have declined, but they're not through. The Government 
Accountability Office has reprimanded the agency for failing to 
establish a process to identify project-specific goals and 
performance measures. There is also a failure to provide 
documentation detailing grantees' expectations as well as 
guidance on specific types of equipment purposes.
    I'm running out of time, but I do want to say that I think 
a better approach to high-speed rail in this country would be a 
form of public-private partnership specifically focused on the 
Northeast Corridor. I'd be happy to get into more of that in 
the questions.
    Thank you.
    [Prepared statement of Mr. Feigenbaum follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Mica. Thank you. We will now turn to Mr. Hart with Rail 
Forward.
    Welcome, sir, and you are recognized.

                  STATEMENT OF THOMAS HART JR.

    Mr. Hart. Thank you, Chairman Mica, and thank you, Ranking 
Member Duckworth.
    And I am pleased to be here today with my Rail Forward 
team--Renee Robinson, Mitchell Brisbane, and Victoria Burton--
who have helped me a lot in preparing my statements and other 
exhibits that are a part of my testimony.
    Also, my wife and daughter are here, and I must recognize 
my dad, who was one of the first black lobbyists on Capitol 
Hill. He lobbied back in the '70s for people movers and other 
energy projects for Westinghouse Corporation.
    I'm the president of Rail Forward and was a co-founder and 
served as vice president for government affairs for the United 
States High-Speed Rail Association. During that period, I 
testified a number of times before Congress on the subject of 
high-speed rail. So it's my opportunity and my pleasure to be 
here today to discuss it further and, hopefully, pave a track 
forward for high-speed rail in America.
    As the other witnesses have already articulated, in 2009 
through 2011, the program was extremely popular and held 
bipartisan support from Democrats and Republicans in the House 
and the Senate. And a number of projects over the last 8 years 
have been started, but none of them have been completed.
    Although projects to connect Los Angeles to San Francisco 
and Chicago to St. Louis and Orlando to Miami are under way, 
they have not been completed, and two of those three, even when 
they are finished, will not be true high speed. Thus, I believe 
that there is sufficient amount of blame to be spread among the 
Nation's stakeholders for lack of more progress on the high-
speed rail intercity passenger system.
    I have a few criticisms of FRA, but need to first note that 
Ms. Feinberg was not the administrator during the early years. 
So she is not to blame for some of the missteps that FAR--FRA 
undertook.
    The first mistake was, frankly, the administration 
designating the FRA that was a safety agency to undersee and 
administer the $10 billion high-speed rail program. The FRA had 
never worked on this type of program before. The FRA had 
neither the experience, the staff, or the regulations to 
quickly and effectively implement the grant process to develop 
high-speed rail.
    We got to go back to 2009 to understand that this was 
supposed to be a stimulus project. It was supposed to stimulate 
jobs and infrastructure, and frankly, it fell short on both.
    Rather than utilizing the best practices of the numerous 
countries that have effectively developed high-speed rail over 
the past 50 years, FRA decided to develop and design its own 
regulatory framework, which was burdensome and lengthy. There 
are a few benefits to being last to market, and that's how we 
are--last to market to high-speed rail. You can learn things 
from others, but FRA insisted on reinventing the wheel, which 
wasted a lot of time and a lot of money.
    Furthermore, the FRA had no programs to engage small 
business or disadvantaged businesses in the design or 
construction of high-speed rail. When the project was first 
announced, there was a huge wave of small and minority-owned 
enterprises that were looking forward to being involved in 
America's new state-of-the-art rail system. Thousands showed up 
at conferences and rallies for high-speed rail.
    However, that support died when small businesses realized 
that there was no active engagement in these projects. To add 
insult to injury, the FRA is currently still undertaking a 
disparity study to design their DBE and small business 
programs. By the time these studies are complete, all the money 
will be gone.
    Another valid criticism of FRA is that they tried to do too 
much with too little. Pennsylvania Congressman Bill Shuster 
frequently argued that the administration took the stimulus 
money and ``sprinkled it around the country'' instead of 
focusing it on major projects that would serve as the model for 
the next generation of high-speed rail in America.
    There were 15 international consortium prepared to bid, and 
none of them to date have been engaged appropriately in a major 
high-speed rail project. Even to date only 51 percent of the 
money that was allocated has been spent. The shovels should 
have been in the ground and creating jobs well before the 
Governors elected to return the money.
    As it happened, when Governors Scott Walker and Kasich 
collectively returned over $3.5 billion, they played right into 
Amtrak's hands because much of that money ended back up into 
Amtrak, and that was not the original intent of the high-speed 
rail program. One of the best one-liners, Congressman and 
Chairman Mica, on this issue of sending the money back and 
reauthorizing it was coined by Corrine Brown when she said, 
``Those Governors were stuck on stupid.''
    The Federal Government also made a mistake in reallocating 
the money back to Amtrak because it crushed the competition in 
the industry that we had hoped for with the high-speed rail 
development. FRA pins the blame for lack of progress for a lack 
of continual funding from the Federal Government. FRA is 
correct.
    When needs to be done is a bipartisan support for a 
national infrastructure bank that, to date, has bipartisan 
support but is still not framed in a way where a majority of 
Congress and Senate are willing to vote on it positively. The 
idea of an infrastructure bank and other public-private 
partnerships like the one in All Aboard Florida are likely the 
best option for raising the significant amount of funds to take 
the next step in the journey for high-speed rail.
    In conclusion, despite the number of numerous mistakes made 
by various parties, we have successfully advanced the movement 
toward high-speed rail in America. The movement will become a 
reality first in California, then throughout the Nation. 
Continued efforts on finding additional funding are important 
or are critical to this effort.
    Amtrak must also play a major role by continuing in its 
efforts to produce higher-speed and safer rail travel. Finally, 
the people that work in these chambers of our national 
government must learn to work together better than we have over 
the last 8 years.
    With that optimistic view, I yield back to the chairman.
    [Prepared statement of Mr. Hart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Mica. Thank you, and we will now hear from the Mayor 
from Normal, Illinois, Mr. Koos.
    Welcome, Mayor Koos.

                    STATEMENT OF CHRIS KOOS

    Mr. Koos. Chairman Mica, Ranking Member Duckworth, and 
distinguished members of the subcommittee, thanks for the 
opportunity to testify today and a special thanks to 
Congressman Davis for his kind words and steadfast support for 
our community and small transportation investments.
    My name is Chris Koos, and it's true. I am the only Normal 
Mayor in the United States. Normal is a medium-sized city in 
central Illinois, about 140 miles southwest of Chicago and home 
to Illinois State University.
    First off, I'd like to thank the members of this committee 
and the Transportation and Infrastructure Committee for 
including a passenger rail title for the first time in the 
surface transportation authorization known as the FAST Act. 
This legislation provides my city, State, and region the tools 
needed to address safety, capital, and rail operations to 
support a truly multimodal and efficient transportation system. 
I look forward to working with our Federal Government partners 
on implementing the programs outlined in the bill.
    I'm always glad to share Normal's success with passenger 
rail and transit-oriented development and the use of public-
private partnership to maximize return on investment. As 
recently as 10 years ago, Normal's development was primarily 
occurring on its perimeter. The central business district, now 
known as uptown Normal, was struggling, as it does in many 
cities throughout the United States. The town's political 
leaders and business community began to rally around a vision 
to improve access to transit and revitalize uptown and awaken 
it into a key asset that could help our region compete and 
prosper economically.
    Our passenger rail station is the second busiest in the 
State of Illinois and the busiest on the 284-mile Chicago to 
St. Louis corridor outside of these cities. The previous 
station was built in 1990 on the Normal town hall parking lot. 
By the mid 2000s, increased ridership on the Lincoln and Texas 
Eagle services resulted in overcrowding to the facility that 
was affectionately referred to as ``Amshack.''
    Key to our uptown Normal master plan was a transportation 
center designed to provide a multimodal hub to accommodate an 
expanding city bus system, intercity and charter buses, a 
station, a new platform for Amtrak, and pedestrian and bike 
connections to our uptown and the universities.
    The plan for the Normal uptown station received tremendous 
support from the State of Illinois, our sister city 
Bloomington, McLean County, our regional airport, Illinois 
State University, Federal and State legislators, and our local 
business community, including our local Chamber of Commerce and 
the area's largest employer, State Farm Insurance.
    In 2010, Normal was awarded one of the first TIGER grants 
in the Nation. The $46 million project received $22 million 
from TIGER, $11 million in additional Federal funding, and more 
than $13 million in State and local contributions. Six months 
after receiving funds, it was the first TIGER project in the 
Nation to break ground and begin construction.
    Less than 2 years later, in 2012, the multimodal 
transportation center was completed, on time and within budget. 
Since opening in July 2012, uptown station and its adjacent 
plaza has become the new heart of Normal, and I think we have a 
slide that shows the new transit station that, again, serves 
local bus connections, regional bus service, as well as 
amenities such as a restaurant. And the city hall occupies the 
top floors, and there is also a park and ride deck that you can 
see in the background.
    Uptown Normal is now a vibrant neighborhood with 
residential, commercial, and entertainment opportunities. Local 
transit ridership is up 34 percent, and transit-oriented 
development continues to abound.
    Thus far, public investment of approximately $85 million in 
Federal, State, and local monies in the transportation arena 
has generated more than $150 million in private investment in 
the uptown district, including construction of a 228-room 
Marriott hotel with a 40,000 square foot conference center and 
an adjacent 114-room Hyatt Place hotel also shown in this 
picture.
    Currently, there are plans to invest an additional $45 
million of private dollars to further promote livability and 
quality of life in our uptown. In the next slide here, you'll 
see this bike and pedestrian friendly roundabout built with 
local and Federal funds, and the next slide refers to a couple 
of hundred feet from the new station of new mixed-use 
developments like the ones that have been built, with more 
expected to come online within the next year or two.
    Following comprehensive planning discussions, including the 
Union Pacific Railroad, Amtrak, and a dozen municipalities with 
stations along the rail line, Illinois was allocated $1.2 
billion to improve service between Chicago and St. Louis from 
FRA's High-Speed Intercity Passenger Rail Program, with $690 
million in State and local match.
    When completed in 2017, the project will produce safer 
conditions, decreased travel times, improved on-time 
performance, and produce increased ridership and economic 
benefits for our town and our residents. Construction is 
ongoing as we speak and is anticipated to be completed in early 
2017.
    The town of Normal along with our local stakeholders rely 
on a strong partnership with Congress, FRA, and Amtrak and is 
committed to a shared vision in a local, regional, and Federal 
planning process to continue to make improvements to our 
regional and long distance rail system to connect the region 
with reliable, fast, and frequent passenger rail service.
    Robust and reliable Federal capital investments are key to 
make all modes of transportation, including passenger rail, to 
be of benefit to our citizens and our economy. Federal support 
for transportation is a longstanding tradition and a core 
constitutional responsibility. We are proud to work with our 
Federal partners in creating, maintaining, and funding safe and 
efficient transportation systems and look forward to future 
collaboration.
    Thank you for the opportunity to contribute on this 
important national discussion, and I'd be happy to take any 
questions.
    [Prepared statement of Mr. Koos follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Mica. Well, thank you.
    And we will start the questions right now, and I will begin 
with a question for Ms. Feinberg. Now you weren't there, but a 
decisions was made, as Mr. Hart said, to sprinkle this money 
around. I know it is sometimes we talk in hindsight, but a 
high-speed rail project is a very expensive project. We have 
ended up now with about $3.9 billion dedicated to California.
    That is not enough really to bail that project out, and 
most of the balance, 99 percent of the money is obligated. What 
happens with our one potential project, California?
    Ms. Feinberg. What happens?
    Mr. Mica. What happens with it? Yes. There is $3.9 billion. 
It is a $64 billion to $68 billion project. It keeps getting 
delayed, put off.
    Ms. Feinberg. Well, to California specifically, they're 
also paying for the project with cap-and-trade funds and with 
State funds as well.
    Mr. Mica. Are you--is there any plan for additional Federal 
funds?
    Ms. Feinberg. Not at this time.
    Mr. Mica. Not at this time. Okay. My preference would have 
been to put the money in the Northeast Corridor in one route 
and show some success and partner with the private sector. 
Maybe $10 billion wouldn't have done it, but it would have been 
good seed money to partner, and I think, Mr. Feigenbaum, you 
said that was the way you recommended to go. Is that right?
    Mr. Feigenbaum. Yeah, that is correct. That is the way that 
other countries that I think ----
    Mr. Mica. Yes.
    Mr. Feigenbaum.--we look to for high-speed rail, Japan and 
France, have done it.
    Mr. Mica. Because they are very capital-intensive projects. 
We don't have the money that China has, and they are building 
thousands of miles of high-speed rail. But, and then Amtrak 
came up with a proposal for high-speed service in the Northeast 
Corridor, which was estimated to take 30 years and $150 
billion.
    Well, first, I won't be alive. Most people on this panel 
won't be alive to see that, and they are not going to get $150 
billion or even a good percentage of it from Congress. Isn't 
that sort of a given, Ms. Feinberg?
    Ms. Feinberg. That's certainly been the case.
    Mr. Mica. Yes. So we are trying to get some successes. We 
put Amtrak, which I call our Soviet-style train system, for 
lack of a better term, and it has been a monopoly. We opened up 
with some provisions I put in the last transportation 
legislation.
    Do you know anything about the status of where we are on 
that, Ms. Feinberg, opening that up? I heard we had some 
interest?
    Ms. Feinberg. Yes, sir. I think the last time we briefed 
you on this, which we've been working closely with you on, the 
request for proposals ----
    Mr. Mica. Right.
    Ms. Feinberg.--was going out. They're due in August, and so 
I expect that we will know more then. I have not been tracking 
them as they come in, but I believe the due date is in August.
    Mr. Mica. And when we did the PRIIA bill, we originally 
opened the Northeast Corridor, which sort of got gobbled up by 
Amtrak, which we wanted to get some serious proposals. Mr. Hart 
spoke to it, and we ended up with how many did you say, Mr. 
Hart? There were a number interested in.
    Mr. Hart. There were 15 consortia that I know of.
    Mr. Mica. Okay.
    Mr. Hart. And worked with a number of them, particularly on 
the east coast programs. And they just got frustrated through 
this process.
    Mr. Mica. Right. Well, some of them I was told came in. 
Amtrak had taken control and basically said, ``We aren't 
interested, go away.'' That is why we shifted the program over 
to DOT so they could get some sort of possibility to 
participate, as opposed to our sole vendor and operator, 
Amtrak, shooing them off.
    No one wants competition. I would love not to have an 
opponent in the primary or the general election. I am sure 
these media guys would like to just have one station and all of 
that, but that is not the reality we live in, and competition 
is healthy.
    Mr. Hart, you gave sort of stinging criticism of FRA and 
the process they set forward. I know Ms. Feinberg wasn't there, 
but we have had problems. Even we have in Florida All Aboard, 
which is probably our most successful higher-speed project in 
the country, they go about 79 miles an hour from Miami to 
Orlando, mainly because of speed restrictions that are imposed. 
It can go faster, I know, and it will go pretty fast in some 
stretches.
    But again, the Federal process, it used to take 15 years. I 
think we started on this 5 years ago with some of the 
approvals. Do you think there is anything we ----
    Ms. Feinberg. For All Aboard Florida ----
    Mr. Mica. Anything we could do to speed that up?
    Ms. Feinberg. Are you talking about All Aboard Florida 
specifically ----
    Mr. Mica. Yes, well, there is another one, is it Texas 
Coastal or something? But ----
    Ms. Feinberg. Certainly, Secretary Foxx and the FRA have 
been really supportive of improving and speeding up the 
permitting process in any way that we can. I mean, part of the 
frustration of why the process takes so long, frankly, is not 
really a complaint directed at the FRA. It's actually a 
complaint directed at NEPA and at the historic societies across 
America that tend to have strong opinions about major 
infrastructure projects.
    We've been ----
    Mr. Mica. Well, the other thing, too, is like FEC is about 
70 percent on an existing corridor, and then there is another 
former rail corridor that wasn't developed coming into Orlando 
airport.
    Ms. Feinberg. They've significant ----
    Mr. Mica. But I can see if you are plotting a new course 
and some of those concerns. But I know working with Senator 
Boxer and others, our intent before was to try to speed up and 
condense that process.
    With Mr. Oberstar, I stood on a bridge on Highway is it 35 
with Members of Congress that had collapsed. People were 
killed. And it was built in 435 days or something like that, 
which the normal procedure would be 4 or 5 years just for 
permitting, but we put a safer bridge in.
    We put--and with All Aboard Florida, they are putting 
positive train control. They are putting rail safety 
improvements. They are improving the bridges for maritime 
traffic, a whole host of things, not to mention new 
environmental improvements. So getting those new systems in 
place, actually protect the environment, enhance the 
environment, and get us a system that is 21st century.
    I would like to invite you to--I went down about 2 months 
ago and saw Miami All Aboard and--members of the committee, 
subcommittee. The project, this All Aboard Florida, will open, 
actually the first leg, they have got the three stations--
Miami, Fort Lauderdale, West Palm Beach. The vehicles are 
coming. Almost all private dollars.
    The Miami terminal by itself is $2 billion, and it envelops 
the existing metro rail and people mover downtown. They will be 
bringing dry rail, a commuter rail in, and high-speed rail into 
it. It is a phenomenal project.
    But like to invite you down and Members to see that.
    Ms. Feinberg. Thank you.
    Mr. Mica. Again, a private-public, to a degree, 
partnership. But almost all private money in the project. So 
she nodded yes. So we will make a date.
    Ms. Feinberg. Thank you for the invitation. I would love to 
come--I would love to come down.
    Mr. Mica. Finally, we are spending a lot of money on Acela, 
and you had talked about some improvements on the Northeast 
Corridor. One that concerned us after the Philadelphia crash 
was positive train control. How long before we have that in 
place, do you know?
    Ms. Feinberg. So Amtrak, to their credit, was quite far 
ahead on PTC, and they activated PTC on the Northeast Corridor 
on time for the last deadline, which was December 31st of 2015. 
That was before the Congress moved the deadline to 2020.
    So Amtrak is ----
    Mr. Mica. But the only section that was done there, I am 
told, is the section up in New Haven, that there are still 
sections that were to be done. That was more of a private 
ownership initiative.
    Ms. Feinberg. So the pieces of the Northeast Corridor that 
Amtrak owns and controls, they have turned PTC on. There are 
certainly portions of rail across the country that Amtrak 
operates on that do not have PTC yet.
    Prior to the Philadelphia accident, there was PTC turned on 
in some portions, but not the specific portion where the 
Philadelphia derailment happened at Frankford Junction.
    Mr. Mica. And they had made a decision not to install it in 
the direction in which the crash occurred?
    Ms. Feinberg. It's a little bit more complicated than that, 
but that's it generally. They had turned on a version of PTC in 
one direction, not in the other, based on the belief that an 
engineer would be unlikely to be accelerating into a sharp 
curve, which is exactly what happened in the Philadelphia 
derailment.
    Mr. Mica. I will have more questions, but we will go to Ms. 
Duckworth, our ranking member now.
    Thank you.
    Ms. Duckworth. Thank you, Mr. Chairman. And again, thank 
you for calling today's hearing and agreeing to invite the 
panel of witnesses, and especially Mayor Chris Koos from 
Normal, to testify.
    Illinois has important passenger rail connections to St. 
Louis, Detroit, Milwaukee, and throughout the Midwest, and 
modernizing these rail corridors makes a real difference for 
the people of Illinois.
    Mayor Koos, as you may know, some States led by Republican 
Governors rejected high-speed rail money. Can you talk a little 
bit about what the modernization program along the corridor 
that comes through Normal has done, and where perhaps you would 
be had those funds not been made available for things that you 
have been able to do with the TIGER grants, et cetera?
    Mr. Koos. Well, I think the most important things that have 
come out of that is the reliability and frequency of service 
along that corridor. We're seeing greater on-time performance 
on that corridor.
    I've come to learn over my years of dealing with this 
project--I actually know more about railroads than I thought I 
ever would or want to--but equally important is that high-speed 
or higher-speed rail is the reliability and frequency of 
service for that traveler, especially that business traveler, 
to know that when they have to be at a destination that they 
will be at that destination in a timely manner.
    Currently, through our community, there's significant 
construction going on with the addition of a second rail line 
through. So we have double track through our community and 
quad-gate systems and pedestrian system, gate systems, which 
are significantly important, given the amount of pedestrian 
traffic we have around Illinois State University.
    So just getting back to your original question, I think 
frequency and the reliability of service is shown, and it's 
shown in the ridership.
    Ms. Duckworth. Have you heard--Mayor Koos, have you heard 
any feedback from your major corporate interests that are in 
the city in terms of the improvement in rail service?
    Mr. Koos. We have. We're seeing some use by our largest 
corporate partner in terms of their travel to Chicago. They're 
finding that to be more advantageous. But they're really 
looking for the completion in 2017 of this higher-speed rail 
system into Chicago, which shortens the time into Chicago by 
estimates from a hour half to 45 minutes, which is very 
significant to the business community in the sense that it 
makes us almost a suburb of Chicago.
    And for our local businesses, small businesses and large 
businesses, they see this as a business opportunity. I recently 
spoke with a man who has an insurance company and a tech 
company both and said with the ability to do business out of 
Bloomington-Normal community and commute to Chicago to do 
business, with his lower overhead of operating in my community, 
makes him a significant competitor in the Chicago market.
    Ms. Duckworth. Thank you.
    I would like to talk with Ms. Feinberg a little bit about 
some of the state of our rail infrastructure before the 
President launched the HSIPR initiative. Can you talk a little 
bit about what that state was like across the Nation?
    Ms. Feinberg. Certainly. I mean, I think you addressed it 
in your opening statement quite eloquently that the age alone 
of many of these routes is more than 100 years old, 135 years 
old. Generally, we've got tracks in disrepair. A lot of the 
ARRA money has gone to upgrading track, to improving safety, 
separating for grade crossings, and all of that needed to be 
done prior to the money being spent.
    Ms. Duckworth. In fact, I was very proud to have helped get 
some TIGER funding money to replace a 134-year-old bridge over 
the Fox River and, in fact, it is a bridge that had both 
freight and commuter rail service. Eight times a day commuter 
rail service went over this bridge, and the last time it had 
been repaired was 80 years ago, had been upgraded.
    So let me just say that the commuters and the family 
members of our men and women who have to get on those trains 
and go to work in Chicago are grateful that that is being 
upgraded.
    I really believe that investing in our transportation 
infrastructure creates jobs, generates investments, and it is 
very unfortunate that since taking control of Congress, the 
majority has refused to provide any additional funds through 
this program. I think that these are badly needed modernization 
efforts and that we stand to leverage the investments in 
infrastructure into the business communities.
    As Mayor Koos has said, this actually makes them a viable 
competitor as a location for major corporations to those who 
might only look at Chicago.
    I thank you for holding this hearing, Mr. Chairman, and I 
yield back.
    Mr. Mica. Well, I would consider just for the record that 
we have put in over $1 billion a year into Amtrak capital 
improvements. They decide where that goes, and we still have 
money left over. It is obligated, but not expended in the $10 
billion. So, and I know some has been withdrawn. So some of 
your criticism is correct, but we are trying to see some 
success and some high-speed service.
    Excuse me, Mr. DeSaulnier, didn't want to take your time. 
The gentleman from California is recognized.
    Mr. DeSaulnier. That is fine, Mr. Chairman. I appreciate 
you having this hearing, and I appreciate the witnesses.
    It is nice to meet the only Normal Mayor, and being a 
former Mayor, I would acquiesce to I was not normal then or 
now. But then, I am a Member of Congress.
    I just, in context, because we talked about California, and 
having been chair of both Transportation Committees in both 
houses in the legislature and been a big supporter of the idea 
of the absolute necessity for California as we continue to 
urbanize, for our economy to continue to grow in the Bay area, 
where the economy grew by almost 12 percent in 2015. But one of 
our biggest obstacles are cost of housing.
    And our infrastructure and our struggle with the perfect 
storm of where our funding sources, as is the case for the rest 
of the country, but gas tax in California at the State level, 
in addition to the Federal level, is particularly problematic 
when we come to investing in infrastructure.
    So the importance of infrastructure, and because, Mr. Hart, 
I think you and I have a similar sort of perspective of the 
California project, we were very large supporters. But that has 
not been without some criticism about how we are going about 
it.
    There are frequently analogies in California between high-
speed rail and, for instance, Golden Gate Bridge. I always 
bring up the Golden Gate Bridge came in under budget and ahead 
of time, and there was a dedicated funding source agreed to by 
the private sector and the Bank of America, based on the 
modeling before we did that.
    So execution, I think, is as important as vision, and I 
just have a sense of urgency about getting this right. So given 
your comment, I am curious about if California is going to be 
the first successful model, how do we overcome the lack of 
funding, some of the struggles we have, and from the public's 
perception, we are scheduled to add the equivalent of the State 
of New York's population in the next 30 years, just like were 
the last 30 years.
    So we are going to go from 40 million to 56 million people. 
It is all being urbanized. We need high-speed rail, but we also 
need the other components that make, for instance, the Japanese 
system so successful. So as I understand it, you have to have 
the connections with intercity rail and transit. You have to 
have commuter rail, and you have to have traditional rail in 
between the cities, Amtrak and upgrade it.
    But ultimately, you want high-speed rail as part of that, 
and I hear even the Reason Foundation to agree with that. So my 
struggle is I am afraid that the way we are doing it in 
California actually makes it--puts it in a position where high-
speed rail will be delayed because we are--and I have to say 
the Authority has come a long way towards investing in the book 
ends, as we call it, the blended solution that Ms. Eshoo was 
such an author of earlier in a previous session of Congress. So 
how do we fix these moving parts?
    And then, Ms. Feinberg, I have a question of you because 
you mentioned cap and trade and as it relates to the current 
lawsuit in Superior Court in Sacramento.
    Mr. Hart. Thank you, Congressman, for the question.
    You're right. The California system is a complex project 
and--but it is underway now. And you know, they broke ground. 
It's coming along. It's still a challenge, but I do believe 
that the bifurcated system will accelerate the development of 
the program.
    The--I think one of the keys that in the long term will be 
tying it into the route to Las Vegas. I think that route, in 
conjunction with the route from San Francisco to Los Angeles, 
will really galvanize travel along that west coast region.
    Mr. DeSaulnier. Mr. Hart, you realize there is no funding 
identified for that line, other than the private sector is 
enthusiastic about it. So the $10 billion in bond funds as the 
voter approved are restricted to the San Francisco-L.A. 
corridor.
    Mr. Hart. Right. And I believe that one will take shape 
more rapidly, I hope, with priority funding from the Federal 
Government, and then possibly some additional State revenue can 
be generated as well. I think the main thing was getting it up 
and running.
    It's still a challenging development, and I know the 
critics say, you know, the train to nowhere, at this point. But 
it had to start in the middle, I think, because of the cost 
factors and just trying to get it off the ground.
    But I do continue to be optimistic on the success of that 
route once it gets developed. But it does have to be 
interconnected with passenger rail and transit rail in the 
major cities.
    Mr. DeSaulnier. Ms. Feinberg, I was just wondering, in 
terms of the cap-and-trade funds, there is a good deal of 
contention about whether that is a tax or fee. The Chamber of 
Commerce has, along with some environmental supporters, have 
joined in this lawsuit.
    So if they were to prevail in this, do we have a backup 
plan? Because that is, as you said, the most significant 
contributor to at least the initial operating system. And even 
with that, if the modeling stayed the way it originally was, 
not the last quarter of cap and trade, you would still be $5 
billion short.
    So in your discussions with the Authority, is there another 
source other than the private sector, which heretofore has not 
been interested?
    Ms. Feinberg. Well, in our conversations with the 
Authority, I think they do have some backup planning that they 
are preparing. I would disagree a little bit on the private 
side not being at all interested.
    My sense is that there has been some limited interest and 
that they have put out requests for interest and have gotten 
some interest. So I would disagree that there has been no 
private interest.
    Mr. DeSaulnier. I would love to have any information that 
way. There has been--the L.A. Times has done a lot of stories 
on this and ----
    Ms. Feinberg. The L.A. Times loves this story, yes.
    Mr. DeSaulnier. Yes, they do. I have been in some of those 
articles, much to my chagrin.
    Ms. Feinberg. Me, too.
    Mr. DeSaulnier. Thank you ----
    Ms. Feinberg. But I mean, to finish--to finish the answer, 
I mean, I think the Authority has several options. There is cap 
and trade, which you're taking off the table. There is State 
money. There are other grant programs. Certainly, the Congress 
can step in at any moment and decide to more fully fund a high-
speed rail program, which I think would be welcome in 
California and elsewhere. So there is backup planning.
    Mr. DeSaulnier. I appreciate it. Mr. Chairman, this is a 
great hearing. It would be wonderful, I think, if we could have 
a discussion about how we improve passenger rail, including 
high-speed rail, which I have never heard you directly 
challenge investments in high-speed rail. It is just where and 
how we do that.
    So I would be nice to have that discussion because I think 
it is a complete necessity for the country.
    Mr. Mica. Well, thank you. And these projects are 
expensive. We went, you and I went to New York on the east side 
access, which is now approaching $12 billion for a very short 
line from Long Island to Grand Central, but needed to be done. 
And you got to find a way to finance it.
    Now we will hear from the gentleman from Philadelphia, Mr. 
Boyle of Pennsylvania.
    Mr. Boyle. Yes, thank you, Mr. Chairman. I want to thank 
you and the ranking member so much for having a hearing on this 
topic. It is something that I care so much about that I am 
skipping--I am supposed to be speaking on the House floor right 
now and skipping that because I wanted to attend this hearing.
    The chairman mentioned that I represent Philadelphia. So 
representing part of the city and part of the suburbs of 
Philadelphia, it is probably not too surprising where my 
passion for Amtrak and high-speed rail comes. But it is not 
just because of a parochial interest.
    I have to say, as an American, it saddened me about a year 
ago when Japan had a big celebration for the 50th anniversary 
of the bullet train. Celebrating 50 years of high-speed rail, 
knowing that most European countries have high-speed rail, that 
here we are, in what is supposed to be the best country in the 
world, and we are the one major country that does not have 
high-speed rail.
    It is maddening and enormously frustrating. So I thank you 
for having this hearing.
    In only 5 minutes, I have about 7 or 8 different topics 
that I could go in. So, obviously, I am not going to get to 
them all. The first is regarding the FRA. I think it was the 
FRA that was running the NECfuture.com Web site.
    Ms. Feinberg. Yes, sir.
    Mr. Boyle. I am perhaps the only Member of Congress nerdy 
enough to spend late at night looking through every single 
option and plan that was laid out there. I think it was upward 
of 13 or 16 from running from just what would it cost to 
maintain the status quo all the way to building a whole new 
parallel Northeast Corridor that would be entirely for 
passenger rail and not have to compete with commercial.
    I wanted to just kind of find out where we are in that 
stage now. Maybe you could bring us up to speed?
    Ms. Feinberg. Sure. And it is a delight to talk with 
someone who is doing things like staying up late at night 
reading about the NEC future. Great ----
    Mr. Boyle. Yes. And then I harass my staff by sending them 
that email at 2:00 in the morning and was subsequently made fun 
of when I came back to the office.
    Ms. Feinberg. Come over to the FRA any time. We have a lot 
of--a lot of people to hang out with. You'll feel right at 
home.
    The NEC future, as you know certainly and as most know, is 
our attempt to lay out options and eventually a preferred 
approach to how we should think about the NEC going forward. So 
over the next 20 years, 30 years, 50 years, as the population 
grows ----
    Mr. Boyle. And it will grow massively.
    Ms. Feinberg. Massively.
    Mr. Boyle. As, and I am sorry to interrupt, as the New York 
City, Philadelphia, Baltimore, D.C. metro areas are essentially 
becoming one large megapolis, and that is where we are going. 
So, sorry.
    Ms. Feinberg. Exactly. No, thank you. These various 
options, which you described well, were put out over the last 
several months. There have been hundreds of thousands of public 
comments that have come in.
    The FRA staff had listening sessions, town hall type 
meetings up and down the corridor to get input and thoughts 
from the communities up and down the corridor. We have heard a 
lot of really helpful feedback about what people are 
interested, what they're not interested in.
    As you said, it goes from status quo all the way to a 
second spine, which, as anyone can imagine, will require 
significant investment, the likes of which we really haven't 
seen in this country. So our plan is to release the public 
comments in the coming weeks so that people can have an 
opportunity to see what the corridor has been saying ----
    Mr. Boyle. Okay. So, in a few weeks, we will be able to 
see. If you could ----
    Ms. Feinberg. Those are the public comments.
    Mr. Boyle. The public comments.
    Ms. Feinberg. Exactly. So that others can see what kind of 
comments we're getting, and then later in the fall, to try to 
wrap up the preferred option and put that out for public 
comment.
    Mr. Boyle. I would strongly encourage FRA to please share 
with my office, as someone who is very much interested, what 
the public was saying about that. I will weigh in with my two 
cents. In a, how can I put this, a highly unusual election 
year, one common area of agreement, actually, between our two 
major parties' nominees seems to be spending on infrastructure 
and going big.
    So I would encourage, as you are developing and looking at 
the plans and if we, as a Congress, argue with this and we are 
always constrained by money, of course, but recognizing not 
just the total spend, but the return on investment, it is a 
slam dunk, particularly in the Northeast Corridor.
    I only have about 30 seconds. So I did want to--this is 
even going kind of more down the line of thinking big, but I 
met--and I think someone mentioned the possibility of going in 
a public-private partnership direction with the Northeast 
Corridor. I sought out and met the group with the Northeast 
Maglev. Technology that when you first hear about it sounds 
like science fiction except it already exists and, in fact, is 
working.
    I will be soon going to Japan to see what essentially is 
the next generation of high-speed rail. I would be curious what 
your thoughts are on the possibility of the maglev. I know that 
Secretary Foxx approved that first demonstration project from 
D.C. to Baltimore, or the study of it and what the possibility 
is of that.
    Because the idea of going up to 300 miles per hour and a 
safety record that is incredible is just so exciting, and it is 
the kind of things that we should be thinking of as Americans. 
Yes?
    Mr. Hart. I had the opportunity to ride a maglev train in 
China. It was going over 300 miles an hour, and it was as 
smooth as this table right now. It was unbelievable. You didn't 
even feel how fast you were moving until you looked out the 
window.
    But there are some challenges with maglev. It's extremely 
expensive, much more expensive than the steel wheel high-speed 
rail programs. And one of the difficulties with the maglev 
systems, even the ones from D.C. to Baltimore that are planned, 
it's not interoperable. In other words, you likely will have to 
get off of that train and get onto another train.
    And so by transferring trains, you're losing the time that 
you would be saving unless you're going just to those two 
destinations, and that does bring Baltimore and D.C. into one 
megatropolis. But if you're going to New York, you know, you 
get to Baltimore real quick, but then you've got to get off the 
train and get on another train. And if it's the Amtrak, you're 
going to lose the time that you had wanted, you know, to make 
up at the beginning.
    Mr. Boyle. Although to be fair, I mean, I think the vision 
of Northeast Maglev is that would just be the start, that it 
would be a Washington, Baltimore, Philadelphia, New York City 
project, and it would include the airports as well in 
Philadelphia and BWI. So that would address some of that 
concern.
    Mr. Hart. Yes. The proponents of it are very enthusiastic. 
It is a smooth ride. It's very quick, but it is extremely 
expensive and--but it does allegedly have less maintenance 
cost.
    So over time, it may pay out, but we're having difficulty, 
you know, raising any real money for traditional, let's say, 
high-speed rail. I'm not sure that we're going to have the 
budget or the commitment to make a long distance maglev train. 
But I hope we can enhance both technologies so that they can be 
blended, and then it would be very useful in certain regions, 
certainly the Northeast Corridor.
    Mr. Boyle. If it is all right, I know I am way over time, 
but I think that another witness, another witness wanted to--
Mr. Feigenbaum?
    Mr. Feigenbaum. Yeah, sure. No, I'll just--I'll keep this 
brief. The reason why China and Japan looked at the maglev 
technology was they looked at it, and they decided it wasn't 
real feasible. They did build some projects more for 
demonstration, sort of as I don't want to say ``showing off,'' 
but you know, sort of as this is what we can do with 
technology.
    But I think they've come to the realization that at least 
right now--which isn't to say in the future, there might not be 
differences in cost. But at least right now, the traditional 
high-speed rail, as Mr. Hart said, is the more realistic option 
from cost purposes.
    Mr. Boyle. Yes, I would say, I mean, my conversations with 
the Japanese government, including the Ambassador here, have 
not reflected that, have not reflected a backing off of a 
commitment to maglev.
    But I thank the chairman, who has been very gracious. As 
people can tell, I have a real passion for this, and it is 
great that we are having this conversation. Instead of talking 
about what is the best way to put a band-aid on the system, 
talking about the next 20, 30 years and where we can really go 
in some exciting areas.
    I yield back.
    Mr. Mica. Mr. Boyle, too, you know, with provisions of 
transportation opening up Amtrak routes to competition, one of 
the most--well, of course, the most densely populated and the 
best potential is the Northeast Corridor. You are right in the 
heart of it. But that opportunity is open. We have in the bill 
some caveats. We are trying to get service between Union 
Station and Penn Station in 2 hours or less with at least one 
stop. You would be probably the stop.
    But I have talked to Richard Branson's folks and others, 
and we are talking to other people who can come in, bring some 
cash to help make that happen and show--if we could just get 
one success in one corridor, I think we would do very well.
    Now I am going to yield back to Ms. Duckworth for a 
unanimous request.
    Ms. Duckworth. Yes, Mr. Chairman, I ask unanimous consent 
to allow the gentleman from California, Representative Jim 
Costa, to participate in today's hearing.
    Mr. Mica. Reserving the right to object because he is one 
of the most knowledgeable people about high-speed rail. But I 
am glad to see him, and I apologize for not personally inviting 
you.
    Without objection, so ordered.
    Mr. Costa. Thank you very much, Mr. Chairman.
    I want to thank the ranking member and members of the 
subcommittee here for allowing me to participate.
    This is an important issue for the future of America, and 
it is appropriate that the subcommittee try to focus and renew 
interest in this effort. Mr. Chairman, you and I have had a 
number of conversations on high-speed rail in America over the 
years, and I appreciate your focus and your advocacy and your 
efforts.
    Let me just make a few observations and maybe grind out a 
few on some of the comments that were made earlier. You know, 
high-speed rail in America can and, I believe, will happen. And 
there are a number of factors that are involved in making that 
a reality. But it is not the technology. We are on four 
generations of high-speed technology that has been developed in 
Japan and Europe and now in China.
    It is not the understanding of financing on a per-mile 
basis, depending upon what the corridor selection route is, 
whether it is in urban areas or whether it is in rural areas or 
whether it is in mountainous areas. We have some good 
understandings of that.
    There have been so many ridership studies that I have been 
familiar with over the 25 years I have been looking at high-
speed rail in Europe and Asia, and one could deduce a lot of 
different things from the ridership studies.
    But when you look at all the multiple factors that are 
involved and where it has happened and where it hasn't 
happened, i.e., the United States, the most powerful nation in 
the world, it comes down to really one crucible. And that is 
the political will. You either have to have the political will 
to make it happen, or you don't.
    It has happened in France and Japan initially because they 
had the political will for a combination of factors that they 
wanted to proceed on, and then they put the full force and 
effort of their national governments to begin to make that 
happen in the '60s and expand upon it in the '70s, and other 
countries took place.
    Let us start, I think, first with the thesis or the 
understanding at least, and if we differ on this point, then it 
is a long ways from here to high-speed rail, in my opinion. But 
there is a subsidy to invest in this major infrastructure 
project, like any major infrastructure projects in America or 
anywhere else in the world, whether we are talking about 
transportation or water projects that I have a strong, deep 
interest in.
    If we are waiting for the private sector to come in and 
finance it, especially in this day and age when we are so 
litigious of a society, good luck. It is not going to happen. 
It is going involve some type of a public-private partnership, 
period. And any other model that I have seen just I don't 
believe you can get there from here.
    So, and what we are struggling with here in this--in 
Washington, and we have for several decades now, is there is no 
book written on how you build high-speed rail in America, and 
we are trying to write that book in California, with a lot of 
challenges, of course. Because a lot of the people who 
sometimes indicate they would like to see high-speed rail 
happen, oh, by the way, are throwing in all sorts of obstacles 
and roadblocks in the process to prevent it from happening.
    And they say, oh, by the way, and you have got to build it 
on time and on budget and da-da-da-da. Well, that is wonderful, 
but you know, if you are trying to do a lot of stuff to prevent 
it from happening, how do you expect us to be on time and on 
budget and with lawsuits and the like?
    So we have yet to demonstrate, and this administration, 
President Obama was the first to come up with $8 billion. 
President Clinton's administration talked about it. But if the 
folks here aren't willing to put up the money, if we in 
Congress aren't going to be willing to make it happen in terms 
of developing this public-private partnership, it is not going 
to happen.
    The $8 billion that was put there as a part of the 
investment package back in 2009 was seed money. No one believed 
that that was going to build any high-speed rail corridor in 
America, let alone in California. So the fact is, is that we 
have got to determine whether or not we are going to do it.
    Now as to--and I am sorry my colleague Congressman Boyle 
left--maglev versus steel on rail, I am not an expert. But let 
me say that the Germans before the Urals spent billions of 
marks and the Japanese have spent billions of yen on both 
maglev and steel on rail technology. And for themselves, for 
reasons that I think were multiple faceted, chose steel on 
rail.
    Now I am not to say that sometime in another generation 
that maglev might have applications in certain instances, but 
the fourth generation of steel on rail now has trains that can 
go 260. Actually, on test runs they have gone in excess of 300 
miles an hour on steel on rail.
    And the Chinese, who basically morphed the Japanese 
technology on steroids, were running those trains up to 250, I 
think, miles an hour or faster until they had their accident, 
and they have slowed down a little bit now. So the fact is, is 
that I don't think we need to reinvent the wheel here. I don't 
think we need to reinvent the wheel. A lot of that has been 
developed.
    Let me also indicate that, you know, the California 
effort--and I want to commend the Governor here, along with the 
President, for getting the first development to take place--
there has been a lot of argument on why you would start at the 
Central Valley as the place.
    Well, the fact is, is that we have got a $60 billion 
infrastructure project. And if you want to try to spend $12 
billion and figure out where you are going to get a system to 
operate between point A and point B that will be viable, that 
$12 billion is not going to go very far in the Bay area or in 
the--where you already have a rapid transit system and an 
interconnectivity, or in Southern California.
    So the--you know, and I think it remains to be seen with 
the new blended business plan that the High-Speed Rail 
Authority has developed in California, I think a real 
opportunity to get there from here. Is it everything we would 
like? Is it the way you would like to build?
    I will tell you what. It follows the pattern on highways. I 
have never seen us build a freeway in the entirety. We build it 
what? In segments. And that is because of the cost structure 
and how much you are willing to invest in it.
    So, Mr. Chairman, I want to urge you to continue your 
efforts, as you have in the past, not just for Floridians, not 
only for the Northeast Corridor, whether it be the Acela, which 
you would like to speed up to 110 plus, which I would support 
your efforts in doing so. The ranking member here in Illinois 
is very concerned about improving the interconnectivity for the 
systems that they are developing there and in the Midwest and 
the connection.
    But you know, with the population densities in California, 
I think we have the density and we have the interconnectivity 
to make it work. We have the second, third, and fifth most 
busiest Amtrak corridors in America in California. We spend 
over $70 million, the State does, every year to improve that 
system.
    One would argue, one way or the other, that it is average. 
I can't say it is above average. It certainly is better than 
what it was 15, 20 years ago. And it could be a lot better if 
we were willing to make additional investments, that is for 
sure.
    Let me close on one note. When I carried the high-speed 
rail bond measure back in 2001 and 2002, and in California, Mr. 
Chairman, we had at those times to get two-thirds vote, which 
means you needed good bipartisan support. And as I said in the 
outset, there is no book written on how you build high-speed 
rail in America.
    But a gentleman who I got to know briefly before he passed 
away wrote a book that comes as close as you can, I guess, to 
look for examples. And that is Stephen Ambrose, when he wrote 
the book ``Nothing Like It in the World.'' And I bought 35 
copies, Mr. Chairman, and I passed it out to my Republican 
colleagues and many of my Democratic colleagues who were 
naysayers.
    And I said perhaps maybe America's greatest President, 
certainly a great Republican President, Abraham Lincoln, the 
Great Emancipator, in 1862 in the middle of the Civil War, when 
he was trying to keep the Union together, when budgeting the 
war was just, you know, challenging as anything we can think of 
today, I would suspect.
    Americans fighting Americans. Inflation was running 
rampant. The first printing of paper money, which people didn't 
trust. And in 1862, he decides after developing the standard 
gauge, if we are going to build across America, that is what we 
are going to do.
    Now I can see if poor President Lincoln--not poor, but if 
the President were in office today with 24-7 news cycle and 
talking heads on Saturdays and Sundays and his advisers coming 
and say, ``Gee, Mr. President, we don't know that politically 
this is a good idea. Maybe you might want to wait for your 
second term?'' Not. I don't think so.
    But he had the boldness and the courage and, most 
importantly, the political will when our country was being 
challenged as never before as whether or not the Union would 
stay together that that would in part be a symbol of the Union 
being bound together from coast to coast.
    And so I think it is in that spirit of President Lincoln, 
when the challenges were far greater then than they are today, 
to decide either we are going to have the political will and 
courage to do it and to make that investment in our 
infrastructure along with other investments in our 
infrastructure, or we are not. But otherwise, this becomes a 
nice conversation, but it doesn't become real.
    And we are trying to make it become real in California, and 
I will try to do everything I can to support your efforts, Mr. 
Chairman, and the ranking member as far as the courtesies that 
you have given me to be a part of this afternoon's subcommittee 
hearing.
    Thank you so very much.
    Mr. Mica. Well, thank you. And we talked earlier about 
where we are with getting the California train out of the 
ditch, so to speak. And how much it is going to take to finish 
that to get a credible segment of it actually operating. That 
is going to be a challenge for additional administrations, 
rightly, as we are talking--I think our latest is up to 2025.
    Do they--do you know, are they looking at like an 
incremental, like initially, it was Bakersfield to Fresno, and 
then they have expanded it up towards San Jose. Are they going 
to open the first part with that first ----
    Mr. Costa. The plan right now is from Bakersfield to 
Merced, which is under construction, I might add. And the High-
Speed Rail Authority has come together with the Governor's 
support and much of Northern California delegation's support as 
well to connect San Jose and Merced.
    Mr. Mica. But is it a phased opening? So they do the 
southern part first, the initial one they were going to do, and 
then take that second into the San Jose area?
    Mr. Costa. What the High-Speed Rail Authority would like to 
do, and they are working with the Governor's office is, is to 
get those first two segments complete. These trains could go at 
240 miles an hour. And then this year, in the next legislative 
calendar, get the commitment from cap and trade to then connect 
San Jose to Merced. That would be the funding source that would 
then connect San Jose to Merced, and you would then have an 
operating segment from San Francisco to Bakersfield.
    Mr. Mica. Well, if the administrator has a plan that has 
been submitted by California for that or you are working with 
them, it would be nice to put that in the record. I just like 
to put things in the record because people say things. They set 
up a timeframe, and then that changes. But at least we can see 
what was promised, where we should be. You need milestones.
    Ms. Feinberg. Certainly.
    Mr. Mica. If you could accommodate us, and we are going to 
leave the record open for submissions and additional questions.
    I have invited, Jim, the members of the committee to come 
down to Miami to see what we are doing. We have a higher speed. 
It is not as fast as California. Private sector, pretty much 
private sector financed project in the intermodal center we are 
building like in Orlando at our airport, $1.4 billion to 
accommodate the terminal in Miami.
    Mr. Costa. Good.
    Mr. Mica. Under construction, is $2 billion dollars. It is 
under construction, and the three terminals in south Florida 
are all under construction, and the cars on their way. So we 
may see something in higher-speed rail, but it certainly isn't 
high-speed rail.
    I want to correct the record, too. On the Florida project, 
Mr. Hart and several others mentioned the administrator as very 
intently involved in trying to make that a success. Secretary 
LaHood added up to $2.4 billion of a $2.7 billion cost project 
that was going to go 84 miles from Orlando airport to downtown 
Tampa.
    We, unfortunately, reached an impasse. Governor Scott just 
came onboard, and people don't know this, but the Governor got 
back the financials. And the part from the Orlando airport to 
the Disney tourist area is a great--it could pay for itself. 
The rest is a dog because they don't have a fixed system in to 
connect into, into Tampa.
    I tried to divide the project up, phase it. Let us do what 
is successful. We could come back. Some folks on the other side 
of the State and aisle and the administration said all or none, 
and the Governor was not willing to take on the long-term 
burden.
    It also was sort of a bait-and-switch project because the 
train that they were looking at was only--it was 84 miles. It 
went 84 miles in 1 hour, which is 84 miles per hour average 
speed. That is not high-speed rail.
    You can right now get on an Amtrak train, which goes from 
the Orlando station over to the Tampa station, and it takes 
about 20 minutes longer than that. So it wasn't much for $2.7 
billion and then going into hock. There is more to the story 
that I thought should be--I would just put that in the record 
there.
    So, again, I want to support it. We have got some 
opportunity for public-private partnership. Mr. Hart, Mr. 
Feigenbaum said that those are avenues for success.
    Mr. Koos, most of your project, though, I think is--is 
yours a State, what do you call it, a State-supported route or 
totally Amtrak?
    Mr. Koos. We have seven State-supported trains a day and 
one long-haul route, the Texas Eagle.
    Mr. Mica. The long-haul route is Amtrak. The money for the 
investment?
    Mr. Koos. Amtrak operates the State routes, but they're 
State supported.
    Mr. Mica. But a lot of your money came from Federal for the 
improvement?
    Mr. Koos. That's correct.
    Mr. Mica. You cited TIGER II, which again I am citing 
public-private partnership, predominantly private for huge 
investment. So I see that and I am even happy when it doesn't 
have to come out of taxpayer dollars, just informationally.
    Huge opportunities for employment. We should have high-
speed rail and higher-speed rail across the country. It is 
just, to me, I think again there are so many savings. We could 
get more cars off and trucks, which tear up the highway, with 
better rail system.
    But 22,000 miles of our rail is privately owned over which 
Amtrak runs. Isn't that right, Ms. Feinberg? Amtrak only owns 
about 600 miles of rail lines.
    Ms. Feinberg. I don't know the exact number, but that 
sounds right.
    Mr. Mica. But, and part of that, almost all of that is 
privately owned, and there are questions about paying for 
capital improvements for the private sector. We have tried to 
provide tax incentives and some assistance for capital 
improvements that are necessary to upgrade those routes, but 
also need to look at incentives--and this is something we might 
work on, Ms. Feinberg--to get the private sector involved in 
carrying passengers, which they did years ago and then got out 
of the business.
    But now rail is under the most pressure it has ever been 
under. They are down in transporting coal and oil and all kinds 
of goods, and it may be an opportunity for them to get in like 
FEC, Florida East Coast, which is doing the project in Florida, 
but with some incentives.
    Mr. Costa. Would the gentleman yield?
    Mr. Mica. Yes.
    Mr. Costa. To your point, in the late--in the '50s, late 
1950s with different technologies, of course, when Santa Fe was 
in the passenger business before Burlington Northern and 
Southern Pacific, but many of the trains around the country ran 
at 99 miles an hour, and they had very nice service.
    And they did that with technologies that was vintage '40s 
and '50s, obviously. But they had an interest. They were making 
a profit out of it at the time, although that changed the 
numbers as air jet travel came in and that began to change 
their economic model.
    But the fact is, is that with even the existing, and we do 
pay the railroads additional money for on-time performance. I 
don't think it is much of an incentive for them. Of course ----
    Mr. Mica. But there are incentives, and I will show you one 
right here, Mr. Costa. Remember I told you about Florida East 
Coast railroad now back getting in the passenger business. They 
are building three--this is actually under construction. Three 
towers, $2 billion.
    This is just one station in Miami, a commercial center. 
Then above the commercial center in the tower, a hotel, then a 
professional building, then two more towers looking down the 
street.
    Mr. Costa. Right.
    Mr. Mica. This is in downtown Miami, of 400 units apiece of 
living. And this is how it is going to look. Isn't that 
incredible?
    And it wraps around the existing metro rail and the 
downtown people mover. They are bringing high-speed rail in 
with another line. And then to get to the airport from that 
site will be 12 minutes, and you can also--for the first time, 
we will have our commuter rail ----
    Mr. Costa. You have your ----
    Mr. Mica.--traveling into that station, and there is you 
know how much Federal money is in it?
    Mr. Costa. You have your interconnectivity there. Well, I 
mean, you know, the stations have been money generators in 
France and in Japan--hotels, convention centers, shopping 
centers, the whole. So, I mean, this model has been used in 
other parts of the world successfully.
    Mr. Mica. I have done a small commuter rail in central 
Florida, just a small leg. We have $2 billion either underway 
or on the planning boards, and they finished almost $1 billion 
in transit-oriented development. So there is potential.
    But I think we have to incentivize the private sector and 
partner with it. If we took that $10 billion and put it in one 
leg, either California or New York or someplace, and partnered 
and doubled, you know, you can--there is a lot of ways to 
extrapolate the money and maximize its potential.
    Mr. Costa. Oh, I agree.
    Mr. Mica. We could--we could have, my hope was, about this 
time be cutting a ribbon somewhere. But right now, we are, as 
we say, ``lagging behind''--the title of this hearing is--``the 
state of high-speed rail in the U.S.''
    Mr. Costa. You are correct. But you know, we are in 
negotiations and conversations with the private sector in 
California for that partnership, and there is a lot of 
interest.
    Mr. Mica. Well, we will get there, and maybe we can do some 
roundtables, and we are getting toward the end of this session.
    Did you want to say something, Mr. Koos?
    Mr. Koos. Specifically, Mr. Chairman, in our corridor, I 
think one of the benefits of the public infrastructure on the 
Chicago-St. Louis corridor, it does allow freight traffic and 
passenger rail traffic to work more efficiently together. And I 
think that's a--that's a noble goal. It makes the railroads 
more profitable.
    Mr. Mica. Absolutely.
    Mr. Koos. And it makes Amtrak work much better. And if 
there is a way, you know, my experience has been if you can go 
to a freight rail company and show them a way that they can run 
profitable passenger rail on the line, they would probably be 
interested. Currently, I don't think they are.
    Mr. Mica. Ms. Duckworth?
    Ms. Duckworth. Just wanted to, again, thank you for this 
and urge you to continue your leadership on this issue, and let 
us talk about this some more.
    Mr. Mica. Good, and maybe another roundtable before the end 
of this session, and then we will see how everything sort of 
evolves. I recommend to you--you recommended your book. I am 
finishing one on John Quincy Adams, absolutely astounding book. 
I love biographies.
    I have read ``John Adams'' by David McCullough, but this is 
the second part, and learning right now that John Quincy Adams, 
when he ran for President was, he was fairly conservative, but 
he felt that infrastructure was so important to the country. It 
was his--he went beyond that.
    And then he was pitted against Andrew Jackson. Andrew 
Jackson wanted absolutely bare bones Federal Government, 
minimal, and that was part--this was 1820s, and their argument 
over infrastructure. And the cute thing is, is reading John 
Quincy Adams' defense was the Founding Fathers intended this 
because George Washington, built the canals, the first post 
roads.
    So his justification was the Founding Fathers did this to 
expand the potential of the Nation, and he brought it back to 
that. But again, reading the commentary and the debate of the 
1820s, things haven't changed too much.
    Anything else, Mr. Costa?
    Mr. Costa. No, I just want to thank you, thank all of you.
    Mr. Mica. We do have additional--fairly good while here, 
but we do have additional questions we are going to be 
submitting, I think, for the witnesses.
    Mr. Mica. So we won't belabor this anymore, but it was a 
good catch-up kind of session, and I think a lot of folks, it 
is nice to see some of the young Members, too, interested in 
this because, as I said, if it is 30 years on the Northeast 
Corridor, I won't be seeing it.
    But this young lady will. I just scoped her age, and she is 
raring to go and will see it complete.
    But I thank the witnesses again, thank my colleagues, and 
there being no further business before the subcommittee, this 
hearing is adjourned.
    Thank you.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
